<html>
<title> - PRESS FREEDOM IN THE AMERICAS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                     PRESS FREEDOM IN THE AMERICAS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 16, 2010

                               __________

                           Serial No. 111-103

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
  56-996PDF               WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida                          JEFF FORTENBERRY, Nebraska
                                     MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                   ELIOT L. ENGEL, New York, Chairman
GREGORY W. MEEKS, New York           CONNIE MACK, Florida
ALBIO SIRES, New Jersey              MICHAEL T. McCAUL, Texas
GENE GREEN, Texas                    CHRISTOPHER H. SMITH, New Jersey
GABRIELLE GIFFORDS, Arizona          DAN BURTON, Indiana
ENI F. H. FALEOMAVAEGA, American     ELTON GALLEGLY, California
    Samoa                            RON PAUL, Texas
DONALD M. PAYNE, New Jersey          JEFF FORTENBERRY, Nebraska
JOHN S. TANNER, Tennessee            GUS BILIRAKIS, Florida
BARBARA LEE, California
JOSEPH CROWLEY, New York
RON KLEIN, Florida










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Joel Simon, Executive Director, Committee to Protect 
  Journalists....................................................     9
Mr. Marcel Granier, President and Director General, Radio Caracas 
  Television Internacional (RCTV)................................    14
Alejandra Nuno, J.D., Program Director for Central America and 
  Mexico, Center for Justice and International Law...............    15
Mr. Eduardo Enriquez, Managing Editor, La Prensa.................    25
Mr. Alejandro Aguirre, President, Inter American Press 
  Association, Deputy Editor and Publisher, Diario Las Americas..    32

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Western Hemisphere: Prepared statement.........................     7
Mr. Joel Simon: Prepared statement...............................    11
Alejandra Nuno, J.D.: Prepared statement.........................    18
Mr. Eduardo Enriquez: Prepared statement.........................    27
Mr. Alejandro Aguirre: Prepared statement........................    34

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    50
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Prepared statement........................    51
Written responses from Mr. Joel Simon to questions submitted for 
  the record by the Honorable Eliot L. Engel.....................    54

 
                     PRESS FREEDOM IN THE AMERICAS

                              ----------                              


                        WEDNESDAY, JUNE 16, 2010

                  House of Representatives,
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:23 p.m. in 
room 2172, Rayburn House Office Building, the Honorable Eliot 
L. Engel, (chairman of the subcommittee) presiding.
    Mr. Engel. Good afternoon. On World Press Freedom Day last 
month, President Obama brought attention to an issue that far 
too often goes unnoticed. He said that ``last year was a bad 
one for the freedom of the press worldwide'' and ``more media 
workers were killed for their work last year than any year in 
recent history.''
    Unfortunately, this is particularly true here in the 
Americas where press freedom has been deteriorating over the 
past few years. I called today's briefing and hearing to shed 
light on this disturbing trend.
    When nine journalists are murdered in Honduras in 5\1/2\ 
months making the small country the most dangerous one for 
journalists in the hemisphere, or when Mexico's drug cartels 
brutally murder members of the press for reporting on the drug 
trade, we cannot sit idly by.
    When Venezuelan President Hugh Chavez shuts down opposition 
TV and radio stations and intimidates journalists and media 
owners who express dissent, we all have a responsibility to 
speak out.
    And certainly, we must continue to shed light on the stark 
state of the press in Cuba--a country with one of the worst 
media environments in the world where 25 of the estimated 200 
political prisoners are independent journalists.
    These are just a few of the most troubling examples of the 
breakdown in press freedom that we see in the Americas, and I 
hope that we will have a chance to examine these trends more 
closely.
    While most of us in the Inter-American community are quick 
to speak out when electoral democracy is in peril, we sometimes 
neglect to raise up our voices when other fundamental aspects 
of democracy are at risk, including the free and independent 
press.
    Yet, in reading the Inter-American Democratic Charter--a 
charter agreed to on September 11, 2001 by every country in the 
hemisphere except Cuba--we understand that democracy is about 
much more than just elections. Of course, free and fair 
elections are essential. But, the Inter-American Democratic 
Charter must also be utilized to ensure that fundamental 
freedoms and democratic norms are safeguarded. This means that 
we must speak out when the press is under attack in the 
hemisphere as freedom of the press is as essential tenet in any 
democracy.
    I am particularly pleased to welcome OAS Special Rapporteur 
for Freedom of Expression, Catalina Botero who will brief the 
committee prior to our hearing. Ms. Botero, your office does 
tremendous work in highlighting the breakdowns in press freedom 
in this hemisphere and we all look forward to hearing from you. 
And after the briefing is over I will introduce our hearing 
witnesses.
    So I thank you and I am now pleased to call on Ranking 
Member Mack for his opening statement.
    Mr. Mack. Thank you, Mr. Chairman.
    First, I would like to thank your witnesses for being here 
to share their experiences and insight, especially our 
international guests who have made special arrangements to 
appear before us today.
    As a congressman in the United States, it is hard for me to 
imagine living without the freedom to speak freely and express 
my individual beliefs and those of my constituents. Freedom of 
expression is a cornerstone of democracy. The establishment of 
free press, one that provides oversight to government 
activities by disseminating information to citizens, is 
essential to a functioning democratic society.
    Less than 90 miles off the coast of my home state of 
Florida the people of Cuba lack these basic rights and continue 
to suffer under the iron-fisted regime of the Castro brothers. 
As we speak, Allen Gross, a U.S. citizen, is being held without 
charges at a high-security Cuban prison where he has been for 
over 6 months. His only crime--providing Internet access to the 
Jewish community living on the isolated island.
    Mr. Chairman, it is also necessary to draw attention to the 
continuing deterioration of press freedom in Venezuela which 
you just spoke about as well. Last Friday, the president of 
Globovision, a well-known opposition television station, was 
issued an arrest warrant for trumped-up charges generated after 
a 2009 raid of his residence. This is the second of such arrest 
warrants he has received this year, and he is not alone.
    The Government of Venezuela does not stop at arresting 
individuals who express contrary opinions. It works tirelessly 
to eliminate these opinions entirely.
    This past January the Government of Venezuela completely 
shutdown the Venezuela TV Station RCTV, finally achieving a 
goal it began in 2007. Today, I call on President Hugo Chavez 
to allow for free and fair legislative elections in September 
by removing the government's interference in the media and 
stopping the intimidation of opposition voices.
    In addition to these severe cases of repression in Cuba and 
in Venezuela, countries throughout the Western Hemisphere 
continue to witness diverse threats to press freedom. Such 
treats occur through nationalization of the media outlets; the 
enactment of laws to restrict media freedom; recently seen in 
Argentina and Ecuador lax prosecution on behalf of the 
government in media intimidation cases; and direct government 
harassment of reporters and journalists.
    Given the levels of press freedom often act as an 
indication of the broader trend of political and social 
freedoms within a country. We must take into consideration the 
other factors that play within these countries. For example, in 
Mexico, Guatemala and El Salvador, attacks on journalists are 
regularly tied to the reporting on drug trafficking 
organizations and criminal gangs.
    As we work with governments in the region to be more 
vigilant in their prosecution of crimes targeting journalists 
and the media, it is important that we address the role of 
these criminal organizations. It is also critical that we 
recognize the vast improvements made in some countries such as 
Colombia.
    As we hear from our witnesses today, I will be looking for 
ways to expand upon such progress in our hemisphere and to 
ensure that the recent trends in Honduras and Venezuela do not 
become the norm. I would also like to discuss the role of new 
media in the effort to ensure continued access to free media 
sources.
    When I hear of the courageous blogger in Cuba who against 
all odds continue to tell their story to the outside world, I 
am confident that technological innovations has the power to 
stifle government efforts to intimidate and shut out 
opposition.
    I look forward to the discussion, Mr. Chairman, today. I 
look forward to hearing from our witnesses, and I want to thank 
everyone for being here. Thank you, Mr. Chairman.
    Mr. Engel. Well, thank you very much, Mr. Mack, and now for 
an opening statement, Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman, for holding today's 
hearing.
    Freedom of the press should be a critical requirement for 
the development and stability of a democratic nation. It offers 
citizens greater opportunities to inform themselves, express 
their personal views, and empower them to pursue social 
justice. Without it, no country can truly enjoy the benefits of 
a vibrant democracy. Journalists who report in some countries 
in the Hemisphere face increasing volatile and dangerous 
conditions where they not only face dire threats to their 
personal security from gangs and organized crime groups, but 
also face government intimidation and the continuous rollback 
of press freedoms.
    In Latin America and the Caribbean, Freedom House has 
characterized Cuba and Venezuela as not free. The government 
and its leaders continue to undermine democracy as they 
suppress freedoms on a daily basis by closing the media outlets 
that don't conform to their beliefs and imprisoning innocent 
reporters.
    Today in Cuba 22 journalists are in prison. In a ranking of 
countries with the most jailed journalists, Cuba was ranked 
third, just under China and Iran. Similarly, Venezuela faces 
extensive censorship of both media and press. Freedom of speech 
and the press while constitutionally guaranteed has been 
increasingly eroded with numerous restrictions. Due to these 
restrictions, we have already seen the closing of numerous 
radio stations and RC TV. Additionally, the Venezuelan regime 
continue to harass journalists to the point that self-
censorship is the only option to avoid serious danger.
    Additionally, many countries, including Mexico, Colombia, 
Guatemala, face increased self-censorship of the media when 
covering stories relating to organized crime. We must continue 
to support and protect the work of journalists in the region 
and decrease the power criminal organizations have over freedom 
of information. Freedom of the press is a fundamental right 
that all countries should respect.
    I thank Ms. Marino for her briefing and I thank the 
chairman for holding this hearing.
    Mr. Engel. Thank you, Mr. Sires, and now for an opening 
statement, Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman and Ranking 
Member for scheduling this very important hearing.
    Article 13 of the American Convention for Human Rights 
clearly states that,

        ``Everyone has the right to freedom of thought and 
        expression, this writing includes freedom to seek, 
        receive, and impart information and ideas of all kinds 
        regardless of frontiers, either orally, in writing, in 
        the print, in the form of art, or through any other 
        medium of one's choice, and most importantly, that this 
        right shall not be subject to prior censorship.''

    Mr. Chairman, it is not an overstatement to say that 
freedom, the freedom of any people depends upon the freedom of 
the press, and yet in a number of the countries in our 
hemisphere the press is not free and journalists are targeted 
for harassment, beatings, and frequently murdered. Those slain 
have often crossed local officials and their private sector 
cronies by uncovering corruption or investigating human rights 
abuses by their governments. Some have just dared to criticize 
their government.
    Through action or inaction, impunity or censorship, Mexico, 
Nicaragua, Venezuela, and Honduras, in particular, have been 
forgetting their obligations under Article 13, and the basic 
necessity of a free press to a healthy nation. Cuba, in its 
paranoid grip on its citizens, has been imprisoning and 
torturing journalists for decades.
    Mr. Chairman, journalists are also affected by the sad 
trend of recent years, to transform the Internet into a tool of 
censorship and surveillance. With the Internet has come new 
power for the people to share information and hold power to 
account, and thus a new target for the abuse by those who hold 
power.
    Formerly oppressed and silent groups have used this new 
media to their advantage, El National reported that in August 
2009, Hugo Chavez dubbed twitter a new agent of terror after a 
massive turn of tweets under the tag ``free media VA,'' 
criticized his government for censoring the Venezuelan media, 
and Chavez has been openly contemplating censorship and 
control, probably with the held, as we are seeing all over the 
world, including in Belarus, with the help of the Chinese cyber 
police who have perfected worst practices on how to control any 
dissidents in their country.
    Mr. Chairman, we do have a bill pending in this committee, 
I am the sponsor, called the ``Global Online Freedom Act'' 
backed by virtually every human rights organization, including 
Reporters Without Borders, Human Rights Watch, Amnesty 
International, Freedom House, and even Google. It requires our 
IT companies when they are in an Internet-repressive country to 
disclose what it is they are censoring and to put beyond reach 
of a secret police personally identifiable information so that 
when somebody goes on line and they perhaps use e-mail, that e-
mail is not intercepted by the secret police to find them, 
apprehend them, and then incarcerate them, especially as they 
do in the PRC.
    I hope that we can take a look at that bill sometime very 
soon before this Congress completes its sitting because we need 
to help those w ho want to use the Internet as an opening 
rather than what it is becoming in some of these countries as a 
tool of repression.
    I yield back and thank you.
    Mr. Engel. Thank you, Mr. Smith. Now we have been joined by 
Mr. Rohrabacher. I call on him for an opening statement.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I take special interest in this, particularly over emphasis 
on human rights, because unlike many of my colleagues here in 
the United States Congress I am not a lawyer. In fact, that was 
the first most--that really was my strongest political slogan 
in my first campaign, ``Vote for Dana, at least he is not a 
lawyer.''
    So how did I earn my living? I was a writer, and I started 
out as a journalist in southern California off and on for about 
10 years before I joined Ronald Reagan in his efforts to become 
President, and he took me to the White House and I became a 
speech writer for a number of years.
    However, I never forgot my days as a journalist and I never 
forgot the dynamics that are at play at getting information to 
the people of this country, and how important that has been to 
our freedom, and if we do stand for freedom and democracy, we 
must understand that in none of these societies, especially in 
the Western Hemisphere, will there be freedom and prosperity 
unless we have a free press, unless people are able to ask 
tough questions, and make serious investigations into people 
who have power.
    And I look at that both personally as well as 
professionally, as well as I might say patriotically. That is 
what America is supposed to be about. If the United States is 
not for press and freedom and these other human rights, then 
what are we about? Are we just a combination of people who came 
here from all over the world in order to make money? I am 
afraid that is not it. The people came here from all over the 
world, yes, to live in prosperity, but essentially to live in 
freedom which led to prosperity, and there will be no 
prosperity without freedom and especially freedom of the press 
because it will be overwhelmed as it is in China and elsewhere. 
It will be overwhelmed by corruption.
    For the record, a sort of tangential issue, I would just 
like to express, Mr. Chairman, my disappointment that the 
current President of Honduras has decided to give into whatever 
pressures were put on him to suggest that he accepts the idea 
of the transfer of power that happened leading up to his 
election was in some way a coup rather than a protection of 
constitutional rights by the Supreme Court and the military of 
that country as well as the Parliament of Honduras.
    Apparently he recently uttered the words, ``Yes, it was a 
coup.'' And I am really worried what pressures caused this man 
to do that. What threats were made on the President of 
Honduras? Did our embassy threaten this?
    In fact, when I was visiting Honduras, Mr. Chairman, I 
suggested that the best thing for Honduras and everyone would 
be to close the books, recognize there had been a free 
election, and move on looking forward rather than looking back 
and try to fight battles of the past. Obviously some people 
have been putting pressure on President Lobo to do the 
opposite, and I would hope that whether it is--whatever we are 
talking about, whatever government we are talking about, we are 
not talking about a fight against evil things in which we will 
then seek vengeance on people who actually were engaged in 
repressing reporters and things such as that.
    What we want to do is build a free world and we have got to 
enlist people who are on the other side, meaning people who are 
on the side of the tyrants, to join in and to create a better 
place, and you don't do that by just re-hashing everything that 
happened in the past, but what we have to do is make sure in 
the present everybody is on the record as to what direction we 
want to go.
    So this is a way to do it, this hearing; very proud to 
stand with my fellow members, especially Chris Smith, we have 
been fighting on human rights issues for 20 years together, and 
this issue, freedom of press in this hemisphere is of utmost 
importance because it will--it will ensure prosperity and peace 
as well as freedom, so thank you very much, Mr. Chairman.
    Mr. Engel. Thank you, Mr. Rohrabacher, and now it is my 
pleasure to introduce Catalina Botero, the Special Rapporteur 
for Freedom of Expression at the Inter-American Commission on 
Human Rights since 2008.
    Ms. Botero previously held several prestigious positions in 
Colombia. She served as an assistant judge with the 
Constitutional Code of Colombia from 1995 to 2000, and again 
from 2005 to 2008. As Special Rapporteur, we have all been 
impressed by your willingness to constructively point out both 
the deficits in press freedom in the region and the progress 
made in certain countries.
    I was particularly pleased by your recent annual report on 
press freedom which provided an excellent summary of related 
concerns in the hemisphere.
    Ms. Botero, thank you for joining us today. The floor is 
yours to brief members of the subcommittee.
    [Recess.]
    Mr. Engel. A quorum being present, the Subcommittee on the 
Western Hemisphere will come to order. I have already delivered 
my opening statement, but I would like to insert my statement 
and all members' opening statements into the record, and 
without objection I will do so.
    [The prepared statement of Mr. Engel follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Engel. I am now pleased to introduce our distinguished 
witnesses, and I ask them to take their seats. Joel Simon is 
executive director of the Committee to Protect Journalists 
(CPJ). Marcel Granier is president and director general of 
Radio Caracas Television International, better known to most of 
us as RCTV. Alejandra Nuno is program director for Central 
America and Mexico at the Center for Justice and International 
Law, CEJIL. Next Eduardo Enriquez is managing editor of La 
Prensa in Nicaragua, and last but certainly not least, 
Alejandro Aguirre is president of the Inter American Press 
Association, IAPA, and deputy editor and publisher of Diario 
Las Americas.
    Welcome to all of you. We appreciate it, and let me just 
ask you to, each one of you to please--we will submit your 
testimony into the record, if we could ask you to summarize 
your testimony in 5 minutes, and I will keep a close tally. Mr. 
Simon, we will start with you.

 STATEMENT OF MR. JOEL SIMON, EXECUTIVE DIRECTOR, COMMITTEE TO 
                      PROTECT JOURNALISTS

    Mr. Simon. Thank you very much, Mr. Chairman and members of 
the committee. I will do my best to be brief. I note that the 
members of the committee are exceptionally well informed on 
these issues based on their opening statements so you will 
pardon me if I tread over some ground which has already been 
raised by committee members.
    What I really want to start out by pointing out is that I 
have been in my position at CPJ for more than a decade. I 
started out monitoring Latin America. I now have global 
responsibilities as executive director, and what I have seen is 
that while democracy has become firmly entrenched in much of 
Latin America, the press continues to operate with few 
institutional protections, and despite the strong tradition of 
independent and critical media in so many countries in the 
region, journalists are increasingly vulnerable to both 
government repression and violence.
    We are going to hear from witnesses in two countries, 
Venezuela and Nicaragua, where governments are pursuing 
effective strategies of marginalizing and even vilifying the 
media while using control of government institutions, including 
the judiciary, to carry out legal action against critics. We 
published a very detailed report about the activities of 
President Daniel Ortega, which I have entered into the record. 
Ortega has set the tone in Nicaragua by calling journals ``sons 
of Goebbels.'' Critics have faced punitive tax raids and 
criminal defamation suits.
    In Venezuela, President Chavez has employed a similar 
strategy, vilifying the press while using politicized--
administrative procedures to force critical broadcasters off 
the air. We have talked about Mr. Zuloaga. The AP is reporting 
that he has now left Venezuela in order to avoid arrest.
    Journalists in these countries face government harassment 
and in other parts of the region the problem is government 
neglect, and that is really the case in Mexico where the 
situation is extremely dramatic. Thirty journalists have been 
killed or disappeared since President Felipe Calderon came to 
office. Most of these are local reporters covering drug 
trafficking, crime or corruption, exactly as the Congressman 
pointed out, and impunity in these cases is near complete, and 
it is creating a pervasive culture of self-censorship, which is 
having a devastating effect on the basic rights of freedom of 
expression in Mexico.
    I do want to point out, however, one case involving a U.S. 
reporter, Brad Will, who was shot and killed in 2006 while 
covering protests in Oaxaca, and there is a video of that 
incident which appears to show a man later identified as a 
member of the pro-government militia firing a weapon directly 
at Will, and despite this very clear evidence no one has been 
convicted in that killing.
    We talked a little bit about Honduras. Seven journalists 
have been killed there since the beginning of the year. That 
has also been getting attention, and in regards to some of the 
questions that have been asked here, we are carrying out a 
detailed report. We have a person who just completed his 
investigation and will be issuing a detailed report on the 
nature of those killings shortly.
    Colombia, we talked a little bit about Colombia. Colombia 
has made some improvements in terms of reduction of violence. I 
do want to point out one issue that has concerned us, which has 
been mentioned, the adversarial relationship which President 
Uribe has had with the press, and also a very distressing 
scandal in which it was revealed that the DAS, which is the 
national security agency, had been wire tapping political 
opponents, magistrates, human rights activists, and 
journalists. CPJ's own e-mails were intercepted.
    Subsequently several senior DAS officials were arrested and 
we met with President Uribe to discuss this issue, and he told 
us ``Illegal spies are enemies of Colombia.''
    I want to finally mention Cuba, far and away the most 
repressive environment for the press in Latin America as 
mentioned; one of the worst in the world. Twenty-two 
journalists are in jail, ranked only behind Iran and China. 
Now, there were some modest hopes at one time when Fidel Castro 
stepped inside. We have not seen any changes in Cuba under Raul 
Castro, I want to make that clear.
    One thing I do want to mention in relation to the small 
incipient blogging culture in Cuba. It has been officially 
tolerated to a certain extent, and I do want to commend 
President Obama for giving an e-mail interview to a Cuban 
blogger, Yoani Sanchez, shortly after she was detained and 
beaten by Cuban security agents in November. That was an 
important gesture.
    So I want to conclude just by saying that efforts by the 
United States Government to protect and promote press freedom 
are vital because we live in an information society. Those who 
are deprived of basic information are, in essence, 
marginalized. So the freedom to seek and receive information is 
not only a human right in this era. It is a prerequisite to 
full participation in the global economy, and that is why these 
hearings today are so important. Thank you very much.
    [The prepared statement of Mr. Simon follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Engel. Thank you very much, Mr. Simon. Mr. Granier.

    STATEMENT OF MR. MARCEL GRANIER, PRESIDENT AND DIRECTOR 
     GENERAL, RADIO CARACAS TELEVISION INTERNACIONAL (RCTV)

    Mr. Granier. Thank you, Mr. Engel, and members of the 
subcommittee for this invitation to talk about things that 
would not be broadcast in Venezuela nowadays because of the 
censorship and the fear that exists over there.
    You asked me is there freedom of expression in Venezuela, 
my answer is no. Why do I say no? Because there are 
consequences to what you say that you cannot control. The 
judiciary power is fully controlled by the government. Most of 
the judges in Venezuela are provisional, and therefore they can 
be changed at will by the authorities.
    The government also controls six television networks and 
hundreds of radio stations that it uses in a very efficient and 
political way: Not to inform people but to criminalize 
everybody who dares have an opinion different to the government 
or to the Presidents.
    In the last 10 years, there have been about 150,000 murders 
in Venezuela. That is ten times more than in the previous 
period. Of those 150,000 homicides, only 3 percent have ended 
with a conviction, and less than 10 percent have ever even been 
brought to court. Therefore there are more than 140,000 
homicides walking around in the streets of Venezuela.
    Among those people murdered, there are more than 20 
journalists or editors. What do they have in common? They were 
covering issues regarding corruption in the government or 
issues regarding drug trafficking and the involvement of high 
officers in such drug trafficking. There is absolutely no 
transparency in Venezuelan public affairs. For example, nobody 
in Venezuela knows for sure how much oil do we produce, how 
much does Venezuela have in reserves, and, of course, nobody 
knows what is happening without those 140,000 murders that walk 
freely in our streets.
    There is no balance of powers. When the government decided 
to shut RCTV down, we went to the Supreme Court of justice. We 
have been waiting for 3 years for their decision. Nothing, no 
answer at all. The second time when they shutdown RCTV 
International there was not even a procedure. The just scared 
off the cable and satellite providers and those companies, 
private companies, some of them listed in the New York Stock 
Exchange or in the European Stock Exchanges were so scared to 
lose their privileges that they decided, okay, to take us off 
the air without any kind of due process of right to defend 
ourselves or anything similar to that.
    There is no presumption of evidence. Mr. Zuloaga who you 
mentioned awhile ago was first arrested without even a 
procedure open against him. The procedure was open 3 hours 
after he was arrested.
    So what do I think of this situation? I think perhaps we 
have the right to express ourselves but we don't have the right 
to seek information of what we think is relevant. We have to 
fear the consequences. We don't know what the consequences are 
because they change the laws, they change the procedures. 
Sometimes they act even before accusing you of anything.
    We are also in fear of the Cuban intelligence services. In 
Venezuela, which is a very unusual case, the immigration, the 
identification systems are controlled by the Cubans under a 
legal agreement that President Chavez signed with President 
Castro. The same applies to all public registries, marriages, 
birth, death, property, all those are controlled by Cuban 
agents.
    Representative Smith was asking about China and the 
Internet. I don't know what exactly is going on there but I can 
tell you that Venezuela and China have signed hundreds of 
agreements. Venezuela owes China billions of dollars and you 
see a lot of Chinese people in Venezuela nowadays, and they are 
highly involved in the telecommunications. They hold the 
largest contracts with the telephone companies that controls 
the Internet in Venezuela.
    I think I am out of time.
    [Note: Mr. Granier did not submit a prepared statement.]
    Mr. Engel. Thank you very much, Mr. Granier. Ms. Nuno.

STATEMENT OF ALEJANDRA NUNO, J.D., PROGRAM DIRECTOR FOR CENTRAL 
  AMERICA AND MEXICO, CENTER FOR JUSTICE AND INTERNATIONAL LAW

    Ms. Nuno.  I think we are all learning here how to use the 
microphones.
    Chairman Engel and distinguished members of the 
subcommittee, thank you for inviting the Center for Justice and 
International Law to testify on press freedom in Honduras 
today.
    My name is Alejandra Nuno, program director for Central 
America and Mexico. CJIL is a nongovernmental organization 
dedicated since 1991 to defending and promoting human rights in 
the American constitute through the strategic use of tools 
offered by international human rights law. We applaud this 
committee for calling this timely hearing and for including 
Honduras as one of the countries in the Americas where press 
freedom is much under threat.
    We share the committee's concern about threats to freedom 
of press situation in Mexico, Nicaragua and Venezuela and would 
add Cuba to the list of nations where this right is severely 
restricted.
    Press freedoms have been limited in Honduras for many 
years, but 2010 has seen a bad situation become more worse, 
much worse. Honduras became this year the most dangerous 
country for journalists in the continent, while Mexico, with a 
population of more than 110 million, four journalists have been 
killed in 2010; in Honduras with less than 8 million, eight 
journalists have been shot to death this year.
    I must point out that freedom of expression watchdogs have 
been long criticized Honduran how far it is for efforts to 
control or intimidate the media, including the use of public 
contracts to punish or reward media for the content and paid 
individual reporters for favorable coverage.
    Regarding a previous question, from 2003 to 2009, the CPJ 
announced three deaths related to the exercise in journalism in 
Honduras. After the army forces then President Zelaya to go to 
Costa Rica on June 28, the new authority imposed severe 
restrictions on the media in order to stifle opposition to the 
coup.
    Several station channels and radio stations were occupied 
by the military and forced to suspend operations. Others were 
unable to report events on the air due to power cuts or the 
seizure of related stations and transmitters. Others had their 
equipment confiscated. Many reporters were assaulted, detained 
or threatened. One radio reporter, Gabriel Fino Noriega of 
Estelar and Radio America, was shot dead on July 3rd as he left 
work.
    However, violence against journalists has reached an 
unprecedented level since this year. Many journalists continue 
to receive death threats related to their reporting. Several of 
these cases, including the persecution of journalist of Radio 
Progreso, La Voz del Occidente and La Voz de Zacate Grande are 
particularly urgent.
    These attacks on the media have a profoundly chilling 
effect on the free exchange of ideas in Honduras, making 
national reconciliation and the restoration of a meaningful 
democracy a distant dream. In Honduras, all branches of 
government bear responsibility when journalists face 
persecution. It is the duty to a state to prevent and the duty 
of the judiciary to investigate such occurrences, to punish 
their perpetrators and to ensure that victims receive due 
compensation, an effective investigation along with other 
protective measures can indeed prevent murders and other 
violent incidents.
    Nonetheless, we are extremely concerned by signs that these 
murders will be added to the ever-growing list of cases 
remaining in impunity.
    As it has been mentioned before, at least seven journalists 
were murdered between March 1 and the end of April for reasons 
that maybe were related to their work. Seven journalists in 2 
months, and those were killed on Monday. Those assassinated 
include TV journalist Joseph Hernandez Ochoa, Nahum Palacios, 
Jose Bayardo Mairena and just 2 days ago Luis Arturo Mondragon. 
In addition, radio journalists David Meza Montesinos, Manual 
Juarez, Jose Bayardo Mairena and add to this list, Luis Antonia 
Chevez Hernandez have been slain.
    None of the victims appear to have been robbed. Each was 
shot to death by unidentified men. Many had received threats 
related to their work. In the case of reporter Nahum Palacios, 
the Inter American Commission on Human Rights has called on 
Honduras to take urgent measures to protect his life as the 
Special Rapporteur just said.
    We have many recommendations for this subcommittee, but we 
will sum up in three. We urge the Members of the Congress to 
use its powers to effectively send a strong message to the 
branches of the Honduran Government that persecution of the 
media must stop, and is urging to bring to justice those 
responsible for the deaths and threats against journalists.
    Also, right now, there are many discussions as to whether 
Honduras should be permitted to rejoin the OIS. It would be a 
setback for press freedom and human rights in the hemisphere if 
that would be done without a minimum human rights conditions, 
and then to arbitrary interference with and persecution on the 
media and, of course, impunity.
    Last but not least, one important way to provide support 
for efforts to protect press freedoms and human rights in 
general would be the establishment of a local office of the 
U.N. High Commissioner for Human Rights in Honduras. In my 
country, in Mexico, and many other places it has been an 
effective way to monitor the situation and to provide technical 
cooperation. Thank you.
    [The prepared statement of Ms. Nuno follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Engel. Thank you very much, Ms. Nuno. Mr. Enriquez.

 STATEMENT OF MR. EDUARDO ENRIQUEZ, MANAGING EDITOR, LA PRENSA

    Mr. Enriquez. Thank you, Mr. Chairman.
    I would like to start by saying that in Nicaragua it is 
living process; that is, demolishing our constitution, our laws 
and our institutions. In that process, of course, freedom of 
the press is in the way and the rigid freedom of the press has 
to stop in the views of the conversation.
    The government, after having been in power in 1980, learned 
the lessons of what we call prior censorship. It is not doing 
that anymore, but it is doing different things that in the end 
have the same results. I will limit to four different ways in 
which the government limits freedom of the press and freedom of 
expression.
    First is the policy of secrecy and lack of transparency. 
This was first expressed in a secret document called 
Communications Strategy that Ms. Rosario Murillo sent to her 
ministers at the beginning of the government in 2007. The 
document called for limitation of the discussion of any claims 
or items to the agenda that was of interest to the government, 
lack of complete communication with the free press, which was 
identified as enemy of the people, and the use of the official 
press for the direct contact with the people. So she said our 
message is uncontaminated. This strategy then means that we 
have no access to information.
    The other strategy they use is the Regulatory Office of 
Communications. By using this office they have been able to 
eliminate any criticism from television and hardly any 
criticism that exists in radio. One of the examples Jaime 
Arellano, a political commentator, was thrown out of Channel 10 
due to government pressures, and then he started his program 
again in Channel 2, and it did not last more than 3 months 
before he was again thrown out.
    Radio La Ley, which belonged to a strong critic of the 
government, was not even allowed to go on the air, and Radio de 
Septiembre was basically bankrupt due to pressures of the 
government. Other radio stations, they have been critical like 
Corpocacion, El Pensamiento and Radio Dario have suffered the 
same problems.
    The government is also using the budget for advertisement, 
which is controlled by Murillo since January 2007, not to give 
advertisement to any critical media. That does not affect much 
La Prensa or the big newspapers, but it has caused the closing 
of many small radio stations and news programs, especially in 
the interior of the country, and the daily newspapers are being 
harassed with the unconstitutional law that imposes a tax in 
the importation of paper which our constitution says that the 
import of paper should be free of import taxes, and the Arsai 
law named after Ardo Arsai, who was the one who enforced it or 
who pushed for it. What it does is to put a tax on this paper--
on the paper that we have to import and has cost the price to 
hike, therefore less people are getting to read the papers and 
get information. If you add that to the problems of the TV 
stations, it is a problem that less people are getting free 
information.
    There is also the example of Channel 8 in which the 
government, basically Mr. Ortega and his business, Albanisa, 
which is in society with Hugo Chavez of Venezuela, but Channel 
8 is one less independent outlet that we have in our country, 
and there is harassment that constantly Channel 4, which is 
also owned by Mr. Ortega, is not part of the government, it is 
owned by Mr. Ortega, it harasses critical journalism whenever 
they have the opportunity.
    Last, I will like to say that this scheme, Albanisa 
business that Ortega has with Mr. Hugo Chavez, is making him 
one of the richest men in the country, and he is trying to use 
his money to remain in power. Thank you.
    [The prepared statement of Mr. Enriquez follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Engel. Thank you very much, Mr. Enriquez. Mr. Aguirre.

 STATEMENT OF MR. ALEJANDRO AGUIRRE, PRESIDENT, INTER AMERICAN 
  PRESS ASSOCIATION, DEPUTY EDITOR AND PUBLISHER, DIARIO LAS 
                            AMERICAS

    Mr. Aguirre. Thank you, Mr. Chairman, and members of the 
committee. It is a great honor for me to be here today.
    My name is Alejandro Aguirre and I am the President of the 
Inter American Press Association based in Miami, Florida. I am 
also deputy editor and publisher of Diario Las Americas.
    The IAPA represents 1,200 newspapers and media outlets in 
the hemisphere. Since 1950, we have worked hard fulmenting a 
free flow of information and opinion in emerging democracies 
through various programs, including our Chapultepec program, 
assisting news outlets in developed democracies, as well as 
assisting journalists where new media are overtly or covertly 
suppressed, especially in the investigation of assassinations 
through our impunity project.
    In the last 10 years, political dynamics has changed to 
such a degree that many of the democratic successes achieved in 
the previous decades have been overturned and thousands of 
journalists in Latin America and the Caribbean are reporting 
under threat of incarceration or murder.
    The suppression of the free press is typically exercised in 
two was: Either through direct government-sponsored actions or 
through an almost total breakdown in civil society, in which 
terrorist groups and/or drug cartels intimidate journalists, at 
times aided by weak or corrupt local and law enforcement 
officials.
    Mr. Chairman and members of the subcommittee, you are very 
familiar with the various political realities in Latin America, 
and time constraints don't permit me to go into many specific 
details here, but just let me say that the increase in media 
suppression in countries such as Venezuela, Argentina, Cuba, 
Ecuador, Bolivia, Nicaragua, Brazil and others, and the murder 
of journalists in countries such as Mexico, Honduras and 
Colombia, are stifling the independent press as these actions 
are intended.
    But for the brave voices that continue to report in any way 
they can despite the consequences, the flow of information in 
many of these countries would be completely lost. These men and 
women face direct threats against them and their families, 
surveillance of their loved ones, and ultimately brutal 
kidnapping and murders.
    In Venezuela, the shutdown of RCTV is now in its third 
year, 34 radio stations and five television stations have been 
closed. An arrest order was given for Mr. Guillermo Zuloaga, 
owner of Globovision, after President Chavez criticized him 
just last week. The order for arrest was made public the day 
the World Cup started.
    In Cuba, the half-century-old dictatorship allows no 
semblance of free speech as we know it. The women in white were 
physically attacked for demanding free speech as was the 
blogger Uani Sanchez, 20 journalists remain in jails. Ecuador 
recently approved the communications law which, among other 
things, requires a mandatory membership to a national 
journalist association, prior censorship and a legal 
requirement to observe a government-mandated ethical conduct. 
These types of laws are becoming a disturbing trend in the 
hemisphere.
    We recognize President Obama for having expressed his 
concern for having freedom of the press directly to the 
President of Ecuador, as well as Secretary of State Clinton and 
Assistant Secretary Valancuella's discussions on this issue 
with the Ecuadorian Government, and we applaud their efforts.
    There are a number of cases of judicial censorship in 
Venezuela, Peru and Argentina, and there is government 
censorship in Brazil in the newspaper O Estado.
    This not just a threat to these countries, but it is also a 
threat to nations which live by the tenets of freedom of speech 
and the press. The suppression of freedom anywhere is a threat 
to freedom everywhere. Specifically, the loss of a free press 
in Latin America, I believe, poses a direct threat to the 
interests of the United States. Organized crime flourishes in 
places where there is little or no journalistic activity. These 
activities then lead onto greater infiltration of illegal drugs 
and weapons, in many cases crossing over U.S. border. It 
creates an environment leading to the exodus of an economically 
viable population which becomes a desperate population fleeing 
their home countries out of fear for their lives.
    Since the beginning of this year, 12 journalists have been 
murdered, at least seven in Honduras, four in Mexico, and one 
in Colombia, and the whereabouts of six reporters who 
disappeared in Mexico on the same day remain unknown. The 
United States can continue to play a very important role in 
encouraging free press in the hemisphere and assisting those 
who are seeking to use their voice for the purpose of 
independent reporting. The role of the U.S. Government and 
continued attention by this subcommittee is critical in this 
effort for the sake of this nation and the free world because 
freedom of speech is the cornerstone of all democracies.
    Thank you again for this opportunity, Mr. Chairman and 
members of the committee. I look forward to any questions you 
may have.
    [The prepared statement of Mr. Aguirre follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Engel. Thank you very much, Mr. Aguirre, and let me 
start with Mr. Granier.
    You have given us a very graphic picture of the lack of 
press freedoms in Venezuela, basically confirming what many of 
us have heard and have been saying. The international community 
has been unified in condemning actions taken by President 
Chavez against RCTV, the European Union and the U.S. Senate 
both passed resolutions in support of RCTV, and human rights 
organizations, including Human Rights Watch and the Washington 
Office on Latin America, have been outspoken. The Organization 
of American States' independent human rights mechanisms also 
have stood in solidarity with you.
    What I am really asking basically is how can we help? What 
can we do? What more can the international community do to 
support you and other journalists and media owners in 
Venezuela? What would be most helpful because we are all 
concerned about it? As you can see it cuts across party lines.
    Mr. Granier. First of all, I would say we have an election 
coming on September 26. The government, through the electoral 
council, is not allowing international witnesses to come and 
watch the election. Perhaps the democratic parliaments from all 
over the world insisted on being present there, even if not 
invited, to see what is going on, to prevent any fraud, that 
would be very helpful.
    The Organization of American States, as Ms. Botero said, 
has two different concerns, so to say: One is the protection of 
human rights and we feel perfectly happy with all of the work 
they have done. The other is the political side of the 
Organization of American States which seems to be stifled and 
seems to be not help at all for democracy in the continent.
    I mean, I have been reading and actually the Secretary 
General gave me today another copy of the Inter American 
Democratic Chart, and I read it, and I ask myself what is the 
purpose of this chart. If we have violations against democracy 
and freedoms and rights happening in Venezuela, in Bolivia, in 
El Salvador, in Nicaragua, in Honduras, in so many places, in 
Cuba but Cuba is not a member, so what is the purpose? He wrote 
us a very nice letter after the closure of RCTV International, 
the Secretary General, offering his mediation.
    I answered his letter accepting the mediation, and came to 
Washington to ask him further to go to Venezuela and to see 
what is happening there. I mean, hundreds of students who have 
protested in the streets are subject to criminal procedures. 
That could mean for those kids between 18 and 24 years in 
prison, in a Venezuelan prison. By the way, Venezuelan prisons 
are the most dangerous of all prisons in the continent, and 
that has been proven time and again.
    And so I came here. I asked him to go to Venezuela to see 
what was happening not only to media, I mean, over 34 radio 
stations shut down, several television stations shut down, 
students in prison, are persecuted, and he hasn't been there 
because the Government of Venezuela has not asked him to go 
there. So something has to be done, I think, regarding the 
powers of the----
    So to answer your question, perhaps give more power to the 
Organization of American States or reorganize it, and be 
present at the election on September 26.
    Mr. Engel. Let me ask you one other question, Mr. Granier. 
How much opposition media remains in Venezuela both on radio 
and TV, and the printed media, printed press? How much remains?
    Mr. Granier. In television, the only independent station is 
Globovision, which is under terrible threats right now not only 
there is an order to imprison Mr. Zuloaga, also his son, and 
one other shareholder in the station is also subject to--I 
mean, his bank was shutdown and he is being persecuted now. 
None of the others are--not even independent, not even neutral, 
I would say. On average they broadcast 3\1/2\ hours of Chavez's 
propaganda or Chavez's speeches a day, on average 3\1/2\ hours 
a day on every radio and television station in Venezuela. I can 
provide you with the figures if you want to.
    In the printed press the situation is different. They are 
facing a very tough economic situation. Venezuela for five 
quarters the economy has been slowing down at a very fast pace. 
We have been losing ground at about 5 percent per quarter, and 
it appears to be getting worse. On top of that there is 
inflation.
    In printed media, well, in all media in general advertising 
income grows more than proportionally when the Gross Domestic 
Product is going up, but it also decrease more than 
proportionally. So they are in a very tough situation. On top 
of that for their print they need dollars in order to acquire--
Venezuela is not a paper printer producer, and is not a 
printing machine producer, so all spare parts, all paper print, 
most of the things you need to do a paper, excepting the work 
of the journalists, has to be imported. For that you need 
foreign currency.
    In the past 4 weeks, foreign currency has practically been 
not available to anybody, and now it is becoming available in a 
very short supply, and controlled by a partisan organization, 
so they depend on the goodwill of those people to get the news 
print they need, and the very small stations, what are called 
community station, they depend on a budget provided by the 
government. If they carry news that the government doesn't 
like, their licensed is cancelled, and we have several cases of 
that happen.
    So, in general, I would say that--I mean, five or six 
newspapers over the country and some independent journalists 
that still do their work, but I will end with this. The 
president of the journalist association is ending his term 
right now, and he was looking for a job. Nobody wanted to give 
him a job because as president of the journalist association he 
had a critical position regarding some measures taken by the 
government, so the government doesn't like him, so he is moving 
away from the country, and that is happening to several other 
journalists.
    Mr. Engel. Thank you. Mr. Enriquez, let me ask you just a 
quick question. In Nicaragua, there were municipal elections 
that were held a couple of years ago that were generally 
thought to be fraudulent. Can the opposition press write about 
that?
    Mr. Enriquez. Yes, the opposition press can write about 
that. In fact, we have done a lot of investigations about how 
the fraud was committed. Nevertheless, whenever we do that or 
whenever we launch an investigation on the government, we are 
usually attacked either personally or during Mr. Ortega's 
speeches.
    In one occasion he even called those--that we were doing 
media terrorism, and on the anniversary of that fraud that 
Ortega celebrated it as a big victory, there was a caravan of 
his followers or people that he also, because there are 
thousands of people that he pays to go to these speeches, and 
they attacked La Prensa with the stones and mortars, and they 
caused some damage. So they hold us directly responsible for 
the reaction, international reaction that provoked this fraud.
    Thank you. Mr. Mack.
    Mr. Mack. Thank you, Mr. Chairman, and I have only got one, 
maybe two questions, because I know that we are running out of 
time, but I want to pick up the OAS, and I would like to ask 
each one of you if you believe that the OAS is promoting 
freedom of the press and democracy in the hemisphere or do you 
think it is a hinderance by not--you know, almost the inaction 
of the OAS is creating a scenario in which some of these 
countries feel like they can follow in Chavez's lead?
    So if we could just go down the line and kind of give me 
your opinion of whether or not you think the OAS is functioning 
properly and if you think it should be reorganized.
    Mr. Simon. As someone who was involved many years ago with 
the creation of the Special Rapporteur's office and advocated 
for the creation of that position, I can say that the addition 
of that office has created a greater emphasis within the 
structure of the OAS that focuses on human rights, and that is 
to the advantage.
    It is hugely important to have an advocate like Catalina 
Botero within the organization, making sure that these issues 
are brought to the attention of the organization.
    I have to say honestly that I cannot think of a recent 
example in which the political part of the organization was 
directly involved in efforts that successfully defended the 
right to freedom of expression or press freedom, and I will 
leave it at that.
    Mr. Mack. Thank you.
    Mr. Granier. I think it has proven to be totally useless. I 
mean, it has been of no help whatsoever in defending democracy 
or in defending freedom of expression or in defending rights of 
any kind. It is sad to say that.
    On the other hand, the Inter American Commission on Human 
Rights is the only international court we have to go to with 
our problems, and the problem is that they have no teeth with 
their decisions, so their decisions are not implemented until 
there is a government willing to accept them.
    Regarding the Rapporteur, well, I am glad Ms. Botero is 
here, but I mean, she has been the only person willing to 
listen. For example, in my personal case I have been threatened 
to death and bombs have been thrown at my home. The only person 
who has listened to that complaint is Ms. Botero.
    I mean, I went to the attorney general in Venezuela. I went 
to the civil courts, I went to the penal courts. I went to all 
the possible authorities in Venezuela and nothing has been 
done. I mean, those people, and they have been clearly 
identified, walk around the streets in Venezuela. There is a 
documentary produced by a Spanish television station showing 
them acting freely. They have been trained by the army. They 
have been not only trained by the army, they are protected by 
the army. They are supplied by the army.
    So regarding the Rapporteur for freedom of information and 
the American Commission on Human Rights, I think their work is 
commendable, and they have been helping that.
    Regarding the Inter American--I mean, the Democratic Chart, 
this has to be reviewed. I mean it is no use at all.
    Mr. Mack. Thank you.
    Ms. Nuno.  I agree with the comments. I have to say that it 
is important to make a difference within the human rights 
organs., The Inter American Commission and the Inter American 
Court on Human Rights. They have done a terrific job, not only 
the Rapporteurship on freedom of expression, but for example, 
the Inter American Court has issued in Nicaragua--it has order 
that the Nicaraguans modify the legislation so that the 
elections cannot--well, the fraud in elections cannot take 
place.
    And I agree with Mr. Granier when he says that we have one 
challenge is to comply with those resolutions. Those 
resolutions are very, very important, and right now we have to 
fight, or we have to lobby for those resolutions to be complied 
with.
    I think that the OAS and the countries that are part of the 
OAS, including the U.S. of course, need to give more budget to 
the commission and to the court. They have done a terrific job, 
and they need more budget and more resources to continue doing 
this terrific work.
    Regarding the OAS, I just want to say that yes, there are 
many challenges. Many challenges regarding democracy 
specifically. We were in Lima in the OAS General Assembly and 
we were saying, for example, there has to be a follow-up 
mechanism for this Inter American Democratic Charter. We were 
urging the OAS members states, for example, to give funding and 
support for the creation of a Special Rapporteurship that 
really monitors and prevents and informs the OAS member states 
on specific democracy issues or freedom of expression issues 
that are really threatened our nations.
    So maybe that is one way to--I don't know--to try t support 
those efforts and to, of course, make them more stronger 
because they lack many effective ways right now.
    Mr. Enriquez. I think the OAS has to go through a complete 
overhaul. Right now the way it is working it is to me a 
presidents' club, and what I mean by that is that only when a 
president is interested in bringing an issue to the OAS, he can 
be listened or the issue can be taken into consideration.
    We could see how Mr. Insulza during the crisis in Honduras, 
he traveled down to Managua to an emergency meeting, tried to 
defend democracy in Honduras, the funny thing was that right 
beside him was Raul Castro, and that was incredible to me that 
he was trying to defend democracy in Honduras while Raul Castro 
was beside him with 50 years as a dictator.
    So it has to go through a great overhaul because they put a 
lot of attention when a President is, you know, for naming it 
in a way, in trouble, but in Nicaragua we are living a 
permanent coup and no one is listening, at least at the OAS, 
and those are not my words. A permanent coup was used when one 
of the most respected lawyers in Nicaragua, because it is a 
permanent coup that Ortega is doing against the Supreme Court, 
against the National Assembly, against the electoral, Supreme 
Electoral Council.
    As I said, if it is going to work, we have to change the 
way it works. Thank you.
    Mr. Aguirre. Congressman, when I was a young man I remember 
hearing a quote from a former Secretary General of the OAS who 
said that the OAS will be what the member states want it to be, 
and I can only give you a personal opinion to your question, 
but I think that when you have many governments in the 
hemisphere that are democratic in origin but as time goes by 
behave in more authoritarian ways, that is the kind of policies 
you will see reflected in the OAS, and I think that is why 
people perceive a double standard with the organization at its 
worst or at its best, an inability to really hold human rights, 
universal human rights that the organization is sworn to 
uphold, and I don't think that that is going to be able to be 
changed under the current system.
    Mr. Mack. Thank you, Mr. Chairman. I agree with our panel 
today that the OAS in my opinion is a hinderance, not a help, 
and it needs to be changed because, if not, we are not going to 
get the real change that we need in Latin America. Thank you, 
Your Honor.
    Mr. Engel. Before I call on Mr. Sires, I want to just note 
that we have been called for a series of votes. So we have a 
few minutes left, and Mr. Aguirre, I think you are still a 
young man, so don't put yourself down.
    Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    You know, I keep hearing about Chavez money going into 
Nicaragua, going into Argentina, you know, going into these 
other places. I was just wondering how much of that has an 
impact on the press and the people how they report things. 
Anyone want to take a--I am always reading about how much money 
Chavez throws into these countries, you know, Bolivia, 
Nicaragua, and Argentina and some of these other places. How 
much do you think that impacts the press?
    You know, we have a saying in Spanish--we have a saying in 
Spanish you either pay the press or you beat it up, so I was 
just wondering--Mr. Aguirre?
    Mr. Aguirre. Congressman, that is an excellent question. I 
was told at one time that during the Nicaraguan Presidential 
elections almost $400 million of aid was given to the 
Government of Nicaragua for political purposes. If you consider 
the size of the country and the GDP of the country, that is 
huge, and because of the way that the government used this 
money to create groups that sometimes turned to violence or 
intimidating acts to the opposition, that definitely has a 
chilling effect on the press because the independent press is 
not a friend of these types of regimes, and that kind of--that 
amount of money gives you such an incredible amount of 
influence and power that you really can start to act with 
impunity.
    Mr. Sires. Mr. Enriquez?
    Mr. Enriquez. Well, in Nicaragua we have seen how, an 
example is Channel 8, they just went out and bought it, and now 
it is now an outlet for Ortega. There has been other cases of 
small TV stations and radio stations which they are simply 
working with the government. They are, as Mr. Granier said, not 
even neutral because they are receiving a heavy amount of 
advertising and that advertisement and the payment does not 
come out of the budget usually because they don't have enough 
money, but it comes out of Albanisa.
    We have also seen how they have money that they do not 
report to anyone, and they can contract these kind of people to 
be aggressive against independent press. Four hundred million 
dollars is what Ortega, according to our calculations, Ortega 
is receiving each year since 2008.
    Mr. Sires. He is a wealthy man. Mr. Granier?
    Mr. Granier. In the Venezuelan case, it hasn't worked at 
all. In 12 years I haven't seen one single journal who has 
changed his position regarding Chavez because of any undue 
influence from the government. I could not say the same for 
media owners. I have seen plenty of them who were strongly 
against Chavez at one point in time and they were seduced by 
easy dollars or by advertising from the government or by 
special compensations.
    Regarding other countries, I think it depends on the 
quality of the press. For example, in Argentina, Chavez has 
given billions of dollars and yet you see the Argentinean press 
is still independent, both La Natione and Clarin are 
independent. You can say the same with the television stations. 
In Chile, he as spent a lot of money promoting underground 
groups, and it hasn't worked very well in Peru. Even in 
Ecuador, Ecuador the press still remains independent. I mean, 
all the papers like El Comojo, I mean several papers both in 
Guayaquil and Quito.
    So I think it depends on the quality of the press in each 
country. I repeat, I have not seen one single journalist who 
was turned pro-government because he was paid or anything. They 
have not been convinced neither by arguments nor by money.
    Mr. Sires. Great. Thank you very much.
    Mr. Granier. Thank you.
    Mr. Engel. Thank you. Mr. Smith.
    Mr. Smith. Thank you very much. I want to ask the panel 
just as I asked Ms. Botero to look into the deployment of 
Chinese cyber police, as well as Cuba, Nicaragua, anywhere 
else, because I do think under the cover of working on the 
media their worst practices are being replicated and it is the 
way of shutting down--it is easy to attack paper, it is a 
little harder to attack the Internet, so please look into that.
    Let me just point out another point, In 1984, and Mr. 
Enriquez, you make the point that the Carlos Fernando Cherago 
from Baracada has gone over to the opposition side. How do the 
people react when you are attacked, your friends are attacked? 
Are they attacked as well?
    And I would note parenthetically back in 1984, you know, 
just to get a little glimpse of just how harsh some of these 
people can be, Baracada, three other Members of Congress and I 
went and met with Ortega, fought with him in an argument about 
human rights for about 2 hours, and the way that they 
misrepresented us was astounding.
    I mean, we get bad press here sometimes. You write a letter 
to the editor. But it was just--I mean, it was grossly 
misinformation, gross misinformation, and it just taught me a 
lesson of just how bad some of these groups can be.
    And finally, the Human Rights Council, Nicaragua and Cuba 
have both gone through their universal periodic reviews, press 
freedom issues were raised. I know the Universal Periodic 
Review they suggested a monitor go to Cuba, and I was there 
with the Mondavalladaries when he won the first resolution on 
Cuba at the old Human Rights Commission, and, frankly, everyone 
who talked to that commission who happened to be a political 
prisoner was retaliated against, and yet the U.N. continues to 
have Cuba sitting as a member in good standing on the Human 
Rights Council.
    That is an absolute outrage and it makes a mockery of the 
Human Rights Commission and Human Rights Council, and those who 
permit it at the U.N. ought to hang their heads in shame that 
such a rogue nation could sit there, run interference for other 
rogue nations, including themselves.
    Mr. Engel. Well, thank you very much, Mr. Smith. I want to 
thank all the panelists for very, very good testimony. I know 
we talked about hypocrisy. I know, Mr. Enriquez, you mentioned 
the hypocrisy of Raul Castro being concerned about freedom on 
Honduras when he provides none for his own country.
    We had to chuckle before when we saw that Nicaragua 
suspended relations with Israel because it objected to the 
incident on the flotilla when there were no freedoms, as you 
pointed out, Mr. Enriquez, in Nicaragua; limited freedoms in 
terms of press freedom. And similarly with Ecuador. They call 
its ambassador to Israel to protest, yet we had Emelio Palacio 
being given a jail sentence, and we had Mr. Correa's statements 
about press in this country which concerned Secretary Clinton 
who made some comments about it as well.
    So I think that hypocrisy reigns supreme, but this 
committee, this subcommittee, we will continue to focus 
attention on the freedoms of the press in all these places, and 
I thank all of you for your really good, all five of you, for 
your really good expert testimony and your concerns. I think 
that if we bring these things to light and we keep shining a 
light on them, that is the best way to make sure that they are 
changed, and that we have the freedom of the press that the 
peoples of all the Americas deserve.
    So thank you very much for your great testimony, and the 
hearing is now adjourned.
    [Whereupon, at 4:20 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
